                 Security Controls Were Not Adequately
                   Considered in the Development and
              Integration Phases of Modernization Systems

                                   August 2005

                       Reference Number: 2005-20-128




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     August 26, 2005


      MEMORANDUM FOR CHIEF INFORMATION OFFICER
                     CHIEF, MISSION ASSURANCE AND SECURITY SERVICES



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Security Controls Were Not Adequately
                                    Considered in the Development and Integration Phases of
                                    Modernization Systems (Audit # 200420029)


      This report presents the results of our review to evaluate the Internal Revenue Service’s
      (IRS) process for incorporating computer security controls into modernization systems.
      Currently, the IRS has a unique opportunity during its systems modernization efforts to
      develop and integrate adequate security controls effectively and efficiently. Many of its
      core systems are being rebuilt under the Business Systems Modernization efforts. As
      such, security controls should be provided during the development phase1 of the
      Enterprise Life Cycle (ELC)2 and tested during the integration phase.3
      We judgmentally selected and reviewed the e-Services, Internet Refund Fact of Filing,
      Modernized e-File, Custodial Accounting Project, and Customer Account Data Engine
      (CADE) modernization projects. Appendix V provides a description of these systems.
      In summary, the Mission Assurance and Security Services (MA&SS) organization, the
      Business Systems Modernization Office (BSMO), and the PRIME contractor4 are


      1
        The development phase includes the analysis, design, acquisition, modification, construction, and testing of the
      components of a business solution. This phase also includes routine planned maintenance of applications.
      2
        The ELC establishes a set of repeatable processes and a system of reviews, checkpoints, and milestones that reduce
      the risks of system development and ensures alignment with the overall business strategy. All IRS personnel and
      contractors involved in the modernization effort are required to follow the ELC. See Appendix IV for additional
      details about the ELC.
      3
        The integration phase includes the integration, testing, piloting, and acceptance of a release. Application and
      technical infrastructure components are tested to determine if they interact properly.
      4
        The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
      companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
      information technology.
                                              2

responsible for incorporating and developing security controls into modernization
systems and their coordination is critical to effectively carry out these responsibilities.
The MA&SS organization is responsible for establishing security standards for all
systems and testing the security controls for new systems. It has a directorate
specifically dedicated to ensuring appropriate security controls are developed, tested,
and implemented for modernization systems. The BSMO is primarily responsible for
ensuring security controls are considered, developed, and integrated in modernization
systems. For the systems we reviewed, the BSMO contracted with the PRIME
contractor to develop security controls in accordance with IRS standards.
The IRS did not adequately consider security controls in the development phase of the
systems. We identified several inadequate security controls, many of which could have
been addressed in the development phase of the systems. For example, several
security configurations do not comply with IRS standards, audit trails are not useable for
modernization systems, and disaster recovery plans are not adequate for the systems
we reviewed. In addition, documentation required in the development phase provided
only general or outdated descriptions of security requirements and controls.
Waiting until after implementation to address these weaknesses will most likely cost
significantly more than if the issues were considered during the development of the
systems. These inadequate security configurations could result in system exploitation
by unauthorized individuals or personnel. In addition, the lack of disaster recovery
planning in the development phase could unnecessarily prolong the recovery from a
natural disaster or terrorist attack. Based on the conditions we identified, we believe the
PRIME contractor primarily focused on delivering systems that would function but did
not provide sufficient emphasis to ensure security controls had been developed for the
systems. Additionally, the MA&SS organization was not sufficiently involved in the early
development stages of the systems we reviewed. More involvement was needed to
hold the PRIME contractor accountable and to encourage the PRIME contractor to
develop security controls in compliance with IRS security standards when the systems
were being developed.
During the integration phase of the ELC, applications must be tested with the technical
infrastructure to ensure they interact effectively. The IRS’ testing identified several
security control weaknesses, but some were not corrected before implementation. For
example, the IRS found operating system configurations and file permissions were
inaccurate on all Microsoft Windows computers for two systems. Although the IRS
considered this weakness to be a moderate risk, it did not take any action to correct the
weakness prior to implementation. Testing tools used by the IRS were generally
adequate, but the IRS could use additional free software to identify additional security
control weaknesses, such as the lack of security patches, before implementing new
systems.
To ensure security controls that meet IRS security standards are adequately considered
during the development of new systems, we recommended the Chief Information Officer
(CIO) provide oversight to ensure coordination between the BSMO and PRIME
contractor. The CIO should revise the ELC to require disaster recovery planning in the
                                            3

development phase of the system life cycle and ensure the CADE audit trail data are
retained and reviewed to detect unauthorized accesses. The Chief, MA&SS, should
take the initiative to participate in the development of new systems and ensure security
controls are built into the new systems. To improve testing, we recommended the
Chief, MA&SS, use additional off-the-shelf security testing tools.
Management’s Response: The CIO emphasized that the IRS considers security
controls at all times, even when there are pressures to implement systems. Security
design processes are shared with various internal stakeholders and required life cycle
artifacts are thoroughly reviewed. Also, IRS integration, deployment, and operational
processes have matured since the audit was conducted. For example, the IRS modified
the PRIME contract to include updated security requirements and implemented
processes to measure compliance with IRS security settings during testing.
The CIO agreed with four of our five recommendations. The CIO stated the ELC and
the PRIME contract have been updated to ensure security controls comply with IRS
standards and are considered in the development phase. The ELC will be revised to
include disaster recovery planning in the development phase. The CIO agreed that the
MA&SS organization should be included in the development phase of new projects. In
addition, the ELC has been updated to ensure security deliverables are addressed
throughout the life cycle. To enhance security testing, the IRS will review internal
processes and determine if additional tools can better check systems controls. The CIO
disagreed with our recommendation to retain and review audit trail information on the
CADE and is not taking any action because the system cannot be accessed externally.
The CIO also disagreed that the Security Audit and Analysis System (SAAS), which was
procured to collect and review audit trail information for other modernization systems,
was not operating. The CIO stated testing in September 2004 validated the SAAS was
receiving and processing modernized system audit trail transactions. Management’s
complete response to the draft report is included as Appendix VI.
Office of Audit Comments: The IRS made several improvements during our review that
should address our conclusions and improve the security of modernization systems.
IRS updates to the ELC and changes to the PRIME contract are examples of these
improvements. We continue to believe that audit trail information for the CADE should
be retained and reviewed. The CADE contains tax information for over 1.3 million
returns that could be accessed by some IRS employees for unauthorized purposes and
potentially used for identity theft purposes. Accordingly, audit trail information must be
maintained to comply with Department of the Treasury requirements. We do not intend
to elevate our disagreement to the Department of the Treasury for resolution at this
time. However, we do plan a comprehensive review to determine whether audit trails
for modernization systems are being retained and reviewed. We will include the CADE
and the SAAS in this follow-up review.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
  Security Controls Were Not Adequately Considered in the Development and Integration
                           Phases of Modernization Systems




                                                  Table of Contents


Background ............................................................................................... Page 1
Security Controls Need to Be Addressed in the Development Phase ....... Page 3
         Recommendations 1 through 3:.....................................................Page 8
         Recommendation 4: .......................................................................Page 9

Modernization Systems’ Security Testing Could Be Improved .................. Page 9
         Recommendation 5: .......................................................................Page 11

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 12
Appendix II – Major Contributors to This Report ....................................... Page 14
Appendix III – Report Distribution List ....................................................... Page 15
Appendix IV – Enterprise Life Cycle Overview .......................................... Page 16
Appendix V – Description of Modernization Projects Reviewed ................ Page 19
Appendix VI – Management’s Response to the Draft Report .................... Page 20
  Security Controls Were Not Adequately Considered in the Development and Integration
                           Phases of Modernization Systems

                                 The Internal Revenue Service (IRS) relies on approximately
Background
                                 350 computer systems to process tax information and
                                 account for over $2 trillion in revenue annually.1 Security
                                 over these systems is critical to prevent hackers, disgruntled
                                 employees, and contractors from gaining unauthorized
                                 access to taxpayers’ sensitive financial information or from
                                 disrupting computer operations.
                                 The IRS has many security weaknesses in its computer
                                 systems that have been difficult and costly to correct. One
                                 explanation for these weaknesses is that security controls
                                 were not adequately considered during the development of
                                 the systems. Many of the IRS’ legacy systems were
                                 developed before the IRS had implemented a rigorous
                                 system development methodology.
                                 Security weaknesses are almost always more difficult and
                                 costly to correct after systems have been implemented.
                                 According to the National Institute of Standards and
                                 Technology (NIST), it costs 30 times as much to fix a defect
                                 once software is built as it does to identify controls needed
                                 during requirements gathering.2 In another study, Gartner,
                                 Inc.3 states if 50 percent of software vulnerabilities were
                                 removed prior to production for purchased and internally
                                 developed software, enterprise configuration management
                                 costs and incident response costs would be reduced by
                                 75 percent each.4
                                 The IRS has a unique opportunity during its systems
                                 modernization efforts to develop security controls more
                                 effectively and efficiently. Many of its core systems are
                                 being rebuilt under the Business Systems Modernization
                                 (BSM) efforts.


                                 1
                                   Financial Audit: IRS’s Fiscal Years 2004 and 2003 Financial
                                 Statements (GAO-05-103, dated November 2004) and the IRS’
                                 Inventory of Cyber Assets.
                                 2
                                   The Economic Impacts of Inadequate Infrastructure for Software
                                 Testing, NIST, May 2002. The NIST, under the Department of
                                 Commerce, develops standards and guidelines for providing adequate
                                 information security for Federal Government operations and assets.
                                 3
                                   Gartner, Inc. is a leading provider of research and analysis on the
                                 global information technology industry.
                                 4
                                   Require Vulnerability Testing During Software Development,
                                 Gartner, Inc. research document, dated September 10, 2003.
                                                                                                 Page 1
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems

                               To ensure modernization projects are developed in a
                               disciplined manner, the IRS adopted its Enterprise Life
                               Cycle (ELC).5 The ELC processes are divided into six
                               phases. Three of these phases (development, integration,
                               and operations and support) are relevant to incorporating
                               security controls into each system. We concentrated on the
                               development and integration phases in this review.
                               We judgmentally selected and reviewed the e-Services,
                               Internet Refund Fact of Filing (IRFOF), Modernized e-File
                               (MeF), Custodial Accounting Project (CAP), and Customer
                               Account Data Engine (CADE) modernization projects.
                               Appendix V provides a description of the modernization
                               systems we reviewed. We tested the security controls of
                               each system and, if security weaknesses were identified,
                               determined whether the security control weakness was
                               considered in the development and integration phases of the
                               system.
                               This review was performed at the Business Systems
                               Modernization Office (BSMO) facilities in
                               New Carrollton, Maryland; the Martinsburg Computing
                               Center (MCC)6 in Martinsburg, West Virginia; and the
                               Austin Campus7 in Austin, Texas, during the period
                               March 2004 through May 2005. The audit was conducted
                               in accordance with Government Auditing Standards.
                               Detailed information on our audit objective, scope, and
                               methodology is presented in Appendix I. Major
                               contributors to the report are listed in Appendix II.




                               5
                                 The ELC establishes a set of repeatable processes and a system of
                               reviews, checkpoints, and milestones that reduce the risks of system
                               development and ensures alignment with the overall business strategy.
                               All IRS personnel and contractors involved in the modernization effort
                               are required to follow the ELC. Appendix IV provides an overview of
                               the ELC.
                               6
                                 IRS Computing Centers support tax processing and information
                               management through a data processing and telecommunications
                               infrastructure.
                               7
                                 The campuses are the data processing arm of the IRS. They process
                               paper and electronic submissions, correct errors, and forward data to the
                               Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                Page 2
    Security Controls Were Not Adequately Considered in the Development and Integration
                             Phases of Modernization Systems

                                   The Mission Assurance and Security Services (MA&SS)
Security Controls Need to Be
                                   organization, the BSMO, and the PRIME contractor8 are
Addressed in the Development
                                   responsible for incorporating and developing security
Phase
                                   controls into modernization systems, and their coordination
                                   is critical to carry out these responsibilities. The MA&SS is
                                   responsible for establishing security standards for all
                                   systems. It has a directorate specifically dedicated to
                                   ensuring appropriate security controls are developed, tested,
                                   and implemented for modernization systems. The BSMO is
                                   primarily responsible for ensuring security controls are
                                   considered, developed, and integrated in modernization
                                   systems. For the systems we reviewed, the BSMO
                                   contracted with the PRIME contractor to develop security
                                   controls in accordance with IRS standards.
                                   We identified several security control weaknesses in the
                                   modernization systems we reviewed, many of which could
                                   have been addressed in the development phase of the
                                   systems. For example, audit trails for modernization
                                   systems are not functioning and disaster recovery plans are
                                   not adequate for the systems we reviewed. In addition,
                                   available documentation indicated a lack of emphasis on
                                   security controls as it provided only general or outdated
                                   descriptions of security requirements and controls. Waiting
                                   until systems are implemented to address security controls
                                   will most likely cost significantly more than if security
                                   controls had been considered during the development of the
                                   systems.
                                   For the five systems, we concluded the PRIME contractor
                                   focused on developing systems that would function, but did
                                   not provide sufficient emphasis on the identification and
                                   development of security controls. In addition, the MA&SS
                                   organization was not sufficiently involved during the early
                                   development stages of the systems. More involvement was
                                   needed to hold the PRIME contractor accountable and to
                                   encourage the contractor to develop adequate security
                                   controls when the systems were being developed.



                                   8
                                     The PRIME contractor is the Computer Sciences Corporation, which
                                   heads an alliance of leading technology companies brought together to
                                   assist with the IRS’ efforts to modernize its computer systems and
                                   related information technology.
                                                                                                  Page 3
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems

                               In January 2005, the IRS began taking over the role of
                               systems integrator from the PRIME contractor due to
                               reductions in funding by Congress for the BSM program
                               and concerns about the adequacy of the PRIME contractor’s
                               performance. The BSMO will now be responsible for
                               program-level activities such as risk management and
                               requirements management. Contractors will continue to be
                               used to deliver projects and provide support services.
                               Security configurations needed to deter unauthorized
                               activity did not always comply with IRS standards
                               Several security configurations in the modernization
                               systems did not comply with IRS standards. In each case,
                               the configurations should have been addressed in the
                               development phase of the systems. These inadequate
                               configurations could result in system security exploitation,
                               unauthorized access to taxpayer data, and disruption of
                               computer operations by unauthorized personnel. Some of
                               the configurations identified are readily exploitable, while
                               others require specialized knowledge of the application
                               installed.
                               Additionally, we noted two instances in which IRS guidance
                               needs to be improved to increase security. If developers had
                               followed the guidance provided by the IRS in these two
                               instances, authentication controls would have been
                               jeopardized, increasing the opportunities for an
                               unauthorized person to gain access to the systems. Due to
                               the sensitive nature of the security weaknesses identified,
                               we are not disclosing the weaknesses in this report.
                               However, we provided IRS management with detailed
                               information of these security weaknesses.
                               Audit trails needed to detect unauthorized activity are
                               not operating on modernization systems
                               The Department of the Treasury requires automated
                               information systems and networks which process, store, or
                               transmit sensitive information maintain an audit trail of user
                               security-relevant events. In addition, the audit trail security
                               feature should be properly implemented and protected from
                               modification. The NIST and the Government
                               Accountability Office also provide guidelines for agencies


                                                                                       Page 4
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems

                               to comply with Federal information systems security
                               requirements.
                               Although we did not specifically evaluate audit trail controls
                               for the systems in our sample, we noted in a prior review9
                               that a system designed to collect audit trail data from certain
                               modernization systems (including the e-Services, IRFOF,
                               and MeF projects in our sample) was not functioning as
                               intended. Audit trail data were being stored, but users could
                               not query the information due to software performance and
                               functionality problems. The IRS accepted the system from
                               the PRIME contractor even though it was aware that the
                               system was not functioning. We were advised by BSMO
                               management during this review that this audit trail system is
                               still not functioning.
                               The CADE has its own audit trail. The CADE, which is
                               eventually expected to replace the IRS’ existing Master File
                               processing systems,10 was first released in July 2004. As of
                               April 27, 2005, it had processed 1.3 million Form 1040 EZ11
                               returns. The audit trail for the CADE is being collected, but
                               it is destroyed after 1-2 days without being reviewed. We
                               were advised by the CADE systems programmer that no
                               IRS manager or employee had expressed a need to review
                               CADE audit trail data, thus it was not being retained. Audit
                               trail information should be reviewed frequently to protect
                               against abuse and to identify abnormal activity by users.
                               The lack of audit trail functionality on these four
                               modernization systems prevents management from
                               identifying and investigating potential unauthorized
                               accesses to the systems. We cannot comment on the audit
                               trail capabilities of the CAP because it was cancelled before
                               being released.




                               9
                                 The Audit Trail System for Detecting Improper Activities on
                               Modernized Systems Is Not Functioning (Reference Number
                               2004-20-135, dated August 2004).
                               10
                                  Master File processing systems contain taxpayer account and return
                               data for individuals, businesses, and employer retirement plans.
                               11
                                  Form 1040EZ is the Income Tax Return for Single and Joint Filers
                               With No Dependents. The initial release of the CADE will not process
                               Forms 1040EZ for joint filers.
                                                                                             Page 5
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems

                               Disaster Recovery Planning was not considered during
                               the development phase of the systems
                               The modernization systems we reviewed will reside on
                               computers at the MCC. The strategy for disaster recovery at
                               the MCC is to mirror all modernization applications at the
                               Tennessee Computing Center (TCC) in Memphis,
                               Tennessee. We noted the following concerns.
                                    •   The MCC Disaster Recovery Plan addresses the
                                        IRFOF system but does not contain steps to fully
                                        restore the system in the event of a severe disaster.
                                        The Disaster Recovery Plan does not address the
                                        other two production systems (e-Services and the
                                        MeF.) The Disaster Recovery Plan for the CADE
                                        adequately addressed disaster recovery requirements
                                        but these requirements were not tested prior to
                                        implementation.12
                                    •   Currently, the TCC cannot support full restoration of
                                        the modernization systems in the event of a disaster.
                                        The IRS is designing a Disaster Recovery Plan for
                                        those modernization systems currently being
                                        developed, including the e-Services and the MeF.
                                        The Plan will contain steps for building and
                                        recovering systems and is scheduled to be completed
                                        within 2 years.
                                    •   IRS guidance requires each site to store a complete
                                        copy of the Disaster Recovery Plan in both magnetic
                                        media and hard copy at the off premises storage
                                        facility for that site. Disaster recovery documents
                                        for four of the five modernization systems were not
                                        stored off-site. These documents are necessary to
                                        provide instructions to employees in the event of a
                                        disaster.
                                    •   Training was not provided for personnel with
                                        disaster recovery responsibilities. According to the
                                        Disaster Recovery Training Coordinator for systems
                                        at the MCC, the Disaster Recovery Team is

                               12
                                 To Ensure the Customer Account Data Engine’s Success, Prescribed
                               Management Practices Need to Be Followed (Reference Number
                               2005-20-005, dated November 2004).
                                                                                           Page 6
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems

                                      comprised of system administrators who are
                                      considered technical experts and, thus, do not need
                                      training. The NIST requires disaster recovery
                                      personnel to be trained to the extent that they are
                                      able to execute their respective recovery procedures
                                      without aid of the recovery plan.
                               The lack of disaster recovery planning for modernization
                               systems could unnecessarily delay the recovery from a
                               natural disaster or terrorist attack. The ELC does not
                               require a detailed Disaster Recovery Plan for any of the
                               phases of the system life cycle. In lieu of a detailed Disaster
                               Recovery Plan, the ELC does require a contingency plan
                               that lacks the specific information needed to restore systems
                               in the event of a disaster.
                               Available documentation indicated security controls
                               were not addressed sufficiently during the development
                               phase
                               The PRIME contractor is required to prepare several reports
                               for each system including the Systems Requirements
                               Report, Security Risk Assessment, Security Plan, Technical
                               Model View, Physical Technology Model View, and the
                               Version Description Document (VDD). Collectively, these
                               reports should document the risks and security controls
                               relevant to each system so the BSMO, the PRIME
                               contractor, and the MA&SS organization have a common
                               understanding of how the system will be developed and
                               implemented.
                               We found several reports and plans that contained either
                               general or outdated security requirements. For example,
                               one report stated requirements would be conducted in
                               accordance with the methodology described in an Internal
                               Revenue Manual section that has been outdated since
                               January 2002.
                               The VDD, in particular, should contain the steps needed to
                               configure and develop the business and security applications
                               needed for the system to operate. However, the VDDs used
                               to build the systems did not include the security controls
                               needed to eliminate the weaknesses we identified.



                                                                                       Page 7
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems

                               Recommendations
                               To ensure security controls that comply with IRS standards
                               are considered in the development phase of modernization
                               systems, the Chief Information Officer (CIO) should:
                               1. Provide oversight to ensure coordination between the
                                  BSMO and its contractors. Under the new operating
                                  model, the BSMO should retain the overall
                                  responsibility for ensuring security controls are provided
                                  in the development phase of new projects. This
                                  responsibility will require the BSMO to ensure it is
                                  properly drafting roles and responsibilities to adequately
                                  consider security controls during the development phase
                                  of the ELC.
                               Management’s Response: The CIO has designated the
                               Director, Infrastructure Modernization Program Office, to
                               provide oversight and ensure coordination between the
                               BSMO and contractors. The CIO stated that, although
                               adequate controls during the design and development phase
                               are reflected in the new ELC, additional improvements can
                               be implemented. In addition, the PRIME contract has been
                               updated to reflect updated security standards and
                               requirements.
                               2. Revise the ELC to require disaster recovery planning in
                                  the development phase of the system life cycle. A
                                  complete Disaster Recovery Plan should be required that
                                  addresses all modernization systems. During
                                  development, computer capacity and business
                                  resumption requirements should be gathered and
                                  considered.
                               Management’s Response: The Deputy Associate CIO of
                               Business Integration will include language in the ELC
                               regarding disaster recovery planning in the development
                               phase of the system life cycle. In addition, corrective
                               actions have been provided as part of the Disaster Recovery
                               Material Weakness Plan to develop disaster recovery plans
                               for all major systems supporting the IRS’ most critical
                               business processes and to update resource requirements for
                               disaster recovery capabilities for major systems.
                               3. Ensure audit trail data captured for the CADE is retained
                                  and reviewed to detect unauthorized accesses.
                                                                                     Page 8
    Security Controls Were Not Adequately Considered in the Development and Integration
                             Phases of Modernization Systems

                                   Management’s Response: The CIO disagreed with this
                                   recommendation. The log and audit files used by the CADE
                                   system programmers are established for recovery and
                                   diagnostic purposes and do not capture data related to
                                   unauthorized access. Currently, the CADE has no support
                                   for external data inquiry.
                                   Office of Audit Comment: We continue to believe that
                                   audit trail information for the CADE should be retained and
                                   reviewed. The CADE contains tax information for over
                                   1.3 million returns that could be accessed by some IRS
                                   employees for unauthorized purposes and potentially used
                                   for identity theft purposes. Accordingly, audit trail
                                   information must be maintained to comply with Department
                                   of the Treasury requirements.
                                   The Chief, MA&SS, should:
                                   4. Ensure the MA&SS organization is included and
                                      participates in the development phase of new systems
                                      and ensure security controls are built into the systems.
                                   Management’s Response: The CIO agreed that the MA&SS
                                   organization should participate in the development of new
                                   systems. In addition, the recent update to the ELC ensures
                                   security deliverables, checkpoints, and milestone exit
                                   certification requirements are addressed throughout the life
                                   cycle. The ELC updates will ensure security controls are
                                   built into the systems.
                                   During the integration phase of the ELC, systems must be
Modernization Systems’ Security    tested to ensure security controls are adequate and they
Testing Could Be Improved          interact effectively with the technical infrastructure. This is
                                   a critical integration phase checkpoint because it is the last
                                   opportunity to identify security control weaknesses before
                                   implementation. The MA&SS organization is responsible
                                   for conducting security testing and identifying security
                                   weaknesses on new systems.
                                   The IRS’ security testing identified several security
                                   weaknesses but not all identified weaknesses were
                                   corrected. For example, the IRS’ security testing of the
                                   modernization systems we reviewed identified incorrect
                                   registry and file permissions on all Microsoft Windows
                                   computers for two systems. Although the IRS considered
                                   this weakness to be a moderate risk, it accepted the risks and
                                                                                           Page 9
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems

                               did not correct the weakness prior to implementation.
                               Based on the circumstances at the time, the decision to
                               implement without correcting the weakness may have been
                               appropriate. However, addressing the weakness earlier in
                               development would have precluded the IRS from having to
                               accept the associated risks and from potentially incurring
                               additional costs to correct it after implementation.
                               The IRS’ testing process could also be enhanced. The IRS
                               limited its testing tools to two products which were
                               developed to test for compliance with IRS standards. The
                               IRS believes its testing methodology adequately addresses
                               security. While we agree the tools used by the IRS are
                               effective, additional security vulnerabilities could be
                               identified using additional cost-effective tools. For
                               example, one free off-the-shelf program evaluates Microsoft
                               Windows workstations for security vulnerabilities. Using
                               this program, we found over 63 percent of the IRS’
                               Microsoft Windows workstations systems were missing at
                               least 1 critical security patch. The SANS Top 20 Internet
                               Security Vulnerabilities13 list recommends several additional
                               security testing tools to assist organizations in identifying
                               vulnerabilities.
                               Furthermore, the IRS’ security tests could have been
                               conducted more efficiently. For example, test commands
                               for mainframe computers were entered manually into the
                               system to gather data. Manual entry of commands is a very
                               time-consuming process and, given the size of the
                               modernization security database, inefficient and ineffective.
                               The modernization mainframe computers already have
                               software installed that could be used to generate test reports
                               more efficiently.




                               13
                                 The SANS Top 20 Internet Security Vulnerabilities, dated
                               October 8, 2004. The SysAdmin, Audit, Network, Security (SANS)
                               Institute was established in 1989 as a cooperative research and education
                               organization. It develops and maintains research documents about
                               various aspects of information security.
                                                                                              Page 10
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems

                               Recommendation
                               To address the testing of security controls for modernization
                               systems in the integration phase, the Chief, MA&SS,
                               should:
                               5. Enhance the Security Test and Evaluation process to
                                  include the use of additional off-the-shelf security
                                  testing tools to identify security vulnerabilities. More
                                  efficient tools that are already available to the IRS for
                                  generating test reports should also be used.
                               Management’s Response: The Deputy Director of
                               Certification, Testing, Evaluation, and Assessment will
                               review the IRS’ internal process and determine if additional
                               tools can be used to better check systems controls.




                                                                                      Page 11
    Security Controls Were Not Adequately Considered in the Development and Integration
                             Phases of Modernization Systems

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology

The objective of our review was to evaluate the Internal Revenue Service’s (IRS) process for
incorporating computer security controls into modernization systems. To accomplish this
objective, we:
I.       Judgmentally selected a sample of three modernization projects that had been
         implemented (the Internet Refund Fact of Filing,1 e-Services,2 and Modernized e-File3)
         and two projects being developed (the Customer Account Data Engine4 and the Custodial
         Accounting Project5). Currently, there are over 21 modernization projects consisting of
         business projects, infrastructure projects, and data projects. We used a judgmental
         sample because we were not planning to project the audit results. For the three
         implemented systems, we used software tools to evaluate operating system security
         settings for the systems at the Martinsburg Computing Center (MCC). We recorded any
         security weaknesses found in these systems.
         A. Obtained and reviewed the most recent Security Test and Evaluation plans and
            reports and Rational Database Security tests.
         B. Compared security vulnerabilities identified by the IRS and our audit team and
            conducted further research to determine whether the problem occurred before or after
            security testing was conducted.
II.      If a security vulnerability identified in Step I occurred prior to testing, determined why
         the vulnerability was not reduced or corrected during the design phase.
         A. Obtained and reviewed the Systems Requirements Report, Security Risk Assessment,
            Security Plan, Technical Model View, Physical Technology Model View, and the
            Version Description Document for the three implemented modernization systems we
            selected to evaluate the adequacy of the information provided.


1
  A web-based application that provides Form 1040-series taxpayers with refund status via the Internet. The Form
1040-series involves individual taxpayers.
2
  A suite of web-based products that will allow tax professionals and taxpayers to conduct business with the IRS
electronically.
3
  Provides taxpayers the option to electronically file a U.S. Corporation Income Tax Return (Form 1120),
U.S. Income Tax Return for an S Corporation (Form 1120S), U.S. Income Tax Return for Certain Political
Organizations (Form 1120-POL), Return of Organization Exempt From Income Tax (Form 990), Short Form Return
of Organization Exempt From Income Tax (Form 990-EZ), and Application for Extension of Time To File an
Exempt Organization Return (Form 8868) through the Internet.
4
  An online modernization data infrastructure that will house the authoritative taxpayer account and return data.
5
  A single, integrated data repository of taxpayer account information, integrated with the general ledger and
accessible for management analysis and reporting. The IRS cancelled this project in January 2005.
                                                                                                        Page 12
    Security Controls Were Not Adequately Considered in the Development and Integration
                             Phases of Modernization Systems

         B. Determined whether the same vulnerabilities existed in the two projects being
            developed by reviewing applicable documentation and executing tests conducted in
            Step I.
III.     Determined whether audit trails were functioning for the modernization systems we
         reviewed.
         A. Followed up on a prior Treasury Inspector General for Tax Administration audit
            report6 to determine whether actions had been taken to provide audit trail data for
            modernization systems, including the e-Services, Modernized e-File, and Internet
            Refund Fact of Filing projects.
         B. Interviewed MCC officials regarding the availability and use of audit trail data for the
            Customer Account Data Engine system.
IV.      Determined whether the modernization systems had adequate contingency plans.
         A. Evaluated the adequacy of available Disaster Recovery Plans for each system in our
            sample.
         B. Ascertained whether disaster recovery training had been provided to responsible
            officials.
         C. Determined whether disaster recovery plans were maintained off-site.
         D. Determined whether disaster recovery requirements were included in the Enterprise
            Life Cycle.
V.       Evaluated the effectiveness of IRS security testing. For vulnerabilities identified by the
         IRS, we determined whether the problems were corrected, waived, or neglected.
         A. Reviewed the IRS’ processes and controls over security testing.
         B. Evaluated the testing methodology for the three implemented modernization systems
            to determine whether the testing was adequate.
         C. Reviewed the tests to determine whether information was correctly recorded and
            tested.




6
 The Audit Trail System for Detecting Improper Activities on Modernized Systems Is Not Functioning
(Reference Number 2004-20-135, dated August 2004).



                                                                                                     Page 13
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Program)
Stephen Mullins, Director
Thomas Polsfoot, Audit Manager
Cari Fogle, Senior Auditor
Myron Gulley, Senior Auditor
Michael Howard, Senior Auditor
Jimmie Johnson, Senior Auditor
Jacqueline Nguyen, Senior Auditor
Midori Ohno, Senior Auditor
Larry Reimer, Senior Auditor




                                                                                        Page 14
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Director, Enterprise Operations OS:CIO:I:EO
Acting Director, Regulatory Compliance OS:MA:RC
Acting Director, Strategy, Program Management, and Personnel Security OS:MA:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Information Officer OS:CIO
       Chief, Mission Assurance and Security Services OS:MA




                                                                                 Page 15
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems

                                                                                     Appendix IV


                              Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) defines the processes, products, techniques, roles,
responsibilities, policies, procedures, and standards associated with planning, executing, and
managing business change. It includes redesign of business processes; transformation of the
organization; and development, integration, deployment, and maintenance of the related
information technology applications and infrastructure. Its immediate focus is the Internal
Revenue Service (IRS) Business Systems Modernization (BSM) program. Both the IRS and its
contractors must follow the ELC in developing/acquiring business solutions for modernization
projects.

Life-Cycle Processes

The life-cycle processes of the ELC are divided into six phases, as described below:
•      Vision and Strategy - This phase establishes the overall direction and priorities for
       business change for the enterprise. It also identifies and prioritizes the business or system
       areas for further analysis.
•      Architecture - This phase establishes the concept/vision, requirements, and design for a
       particular business area or target system. It also defines the releases for the business area
       or system.
•      Development - This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. This phase also
       includes routine planned maintenance of applications.
•      Integration - This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine if they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
•      Deployment - This phase includes preparation of a release for deployment and actual
       deployment of the release to the deployment sites. During this phase, the deployment
       team puts the solution release into operation at target sites.
•      Operations and Support - This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and
       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
                                                                                            Page 16
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems

       The Operations and Support phase includes the scheduled activities, such as planned
       maintenance, systems backup, and production output, as well as the nonscheduled
       activities, such as problem resolution and service request delivery, including emergency
       unplanned maintenance of applications. It also includes the support processes required to
       keep the system up and running at the contractually specified level.

Management Processes

Besides the life-cycle processes, the ELC also addresses the various management areas at the
process level. The management areas include:
•      IRS Governance and Investment Decision Management - This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
•      Program Management and Project Management - This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its
       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.
•      Architectural Engineering/Development Coordination - This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as
       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.
•      Management Support Processes - This area includes common management processes,
       such as quality management and configuration management that operate across multiple
       levels of management.

Milestones

The ELC establishes a set of repeatable processes and a system of milestones, checkpoints, and
reviews that reduce the risks of system development, accelerate the delivery of business
solutions, and ensure alignment with the overall business strategy. The ELC defines a series of
milestones in the life-cycle processes. Milestones provide for “go/no-go” decision points in the
project and are sometimes associated with funding approval to proceed. They occur at natural
breaks in the process where there is new information regarding costs, benefits, and risks and
where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
•      Milestone 1 - Business Vision and Case for Action. In the activities leading up to
       Milestone 1, executive leadership identifies the direction and priorities for IRS business
       change. These guide which business areas and system development projects are funded
       for further analysis. The primary decision at Milestone 1 is to select BSM projects based
       on both the enterprise-level Vision and Strategy and the enterprise architecture.
                                                                                           Page 17
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems

•    Milestone 2 - Business Systems Concept and Preliminary Business Case. The
     activities leading up to Milestone 2 establish the project concept, including requirements
     and design elements, as a solution for a specific business area or business system. A
     preliminary business case is also produced. The primary decision at Milestone 2 is to
     approve the solution/system concept and associated plans for a modernization initiative
     and to authorize funding for that solution.
•    Milestone 3 - Business Systems Design and Baseline Business Case. In the activities
     leading up to Milestone 3, the major components of the business solution are analyzed
     and designed. A baseline business case is also produced. The primary decision at
     Milestone 3 is to accept the logical system design and associated plans and to authorize
     funding for development, test, and (if chosen) pilot of that solution.
•    Milestone 4 - Business Systems Development and Enterprise Deployment Decision.
     In the activities leading up to Milestone 4, the business solution is built. The Milestone 4
     activities are separated by two checkpoints. Activities leading up to Milestone 4A
     involve further requirements definition, production of the system’s physical design, and
     determination of the applicability of fixed-price contracting to complete system
     development and deployment. To achieve Milestone 4B, the system is integrated with
     other business systems and tested, piloted (usually), and prepared for deployment. The
     primary decision at Milestone 4B is to authorize the release for enterprise-wide
     deployment and commit the necessary resources.
•    Milestone 5 - Business Systems Deployment and Postdeployment Evaluation. In the
     activities leading up to Milestone 5, the business solution is fully deployed, including
     delivery of training on use and maintenance. The primary decision at Milestone 5 is to
     authorize the release of performance-based compensation based on actual, measured
     performance of the business system.




                                                                                         Page 18
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems

                                                                                    Appendix V


                    Description of Modernization Projects Reviewed

e-Services - The e-Services is a suite of web-based products that will allow tax professionals and
taxpayers to do business with the IRS electronically.

The Internet Refund Fact of Filing (IRFOF) – The IRFOF is a web-based application that
provides Form 1040-series taxpayers with refund status via the Internet. The Form 1040 series
involves individual taxpayers.

Modernized e-File (MeF) - The MeF provides taxpayers the option to electronically file a
U.S. Corporation Income Tax Return (Form 1120), U.S. Income Tax Return for an
S Corporation (Form 1120S), U.S. Income Tax Return for Certain Political Organizations
(Form 1120-POL), Return of Organization Exempt From Income Tax (Form 990), Short Form
Return of Organization Exempt From Income Tax (Form 990-EZ), and Application for
Extension of Time To File an Exempt Organization Return (Form 8868) through the Internet.

The Custodial Accounting Project (CAP) - The CAP will be a single, integrated data
repository of taxpayer account information, integrated with the general ledger and accessible for
management analysis and reporting. The IRS cancelled this project in January 2005.

The Customer Account Data Engine (CADE) - The CADE is an online modernization data
infrastructure that will house the authoritative taxpayer account and return.




                                                                                          Page 19
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems

                                                                       Appendix VI


                  Management’s Response to the Draft Report




                                                                             Page 20
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems




                                                                             Page 21
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems




                                                                             Page 22
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems




                                                                             Page 23
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems




                                                                             Page 24
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems




                                                                             Page 25
Security Controls Were Not Adequately Considered in the Development and Integration
                         Phases of Modernization Systems




                                                                             Page 26
